IN THE
SUPREME COURT OF THE UNITED STATES
SCCT No. PSC-190471
AMMAR IDLIBI,
Petitioner,
v.
STATE OF CONNECTICUT,
Respondent.

PROOF OF SERVICE
I Ammar ldlibi, do swear or declare that on this date September 8,
2020, as required by Supreme Court Rule 29, I have served the enclosed
Petition for a Writ of Certiorari along with its Supplemental Appendix.
redacted appendix and Motion To File Portion of Appendix Under Seal on
each party to the above proceeding or that party's counsel, and on every
other person required to be served, by depositing an envelope containing
the above documents in the United States mail properly addressed to each
of them and with first-class priority postage prepaid, or by delivery to a
third party commercial delivery within 3 calendar days.
I certify that an electronic copy was e-mailed to all parties on
September 8, 2020. The names and addresses of those served as follows:
1- Representing the Respondent (the State of Connecticut):
Carolyn Signorelli, Assistant Attorney General
Juris: 408547
Office of the Attorney General
10 Sherman Street
Hartford, CT 06105
860-808-5480
Email: Carolyn.Signorelli@ct.srov

ll V/////,

;,0
= Z:w

%

u>. pn

f\/

2- Representing the three children:
Kata Maluszewski, Esq.
Juris: 418248
Sheehan, Watson & Maluszewski
35 Pearl Street Suite 302
New Britain, CT 06051 860-225-8447
Kata@newbritainlaw.com
Brian T. Walsh
Juris: 434282
Public Defender's office
20 Franklin Square
New Britain, CT 06051
860-515-5222
Brian.Walsh@iud.et. gov
Robert Lewonka, Esq.
Juris: 418796
1157 Highland Ave. Suite 202
Cheshire, CT 06410
203 6515850
lewonkarob@vahoo.com

I declare under penalty of perjury that the forging is true and correct
Executed on September 8, 2020.

Kb

o^7o Qfmmb

AMMAR IDLIBI,
Petitioner.

